                                        NATIONAL SCIENCE FOUNDATION                 -?:       page
                                                                                                     :o:
                                                                                                     A 01L
                                              4201 WILSON BOULEVARD
                                             ARLINGTON, VIRGINIA 22230




    I      OFFICE OF

    I   INSPECTOR GENERAL




         MEMORANDUM

         Date:              March 26,1998
                                        --                                                    -              ---- - -
!        To:                File No. I97080041

         From:                                             Investigations Section

         Through:                                                    Investigations Section
1
         Re:                Close out

        Our office received an allegation regarding Dr.
        investigator on NSF grant no.                 at                               New York.
        The complainant alleged at 1) the PI never
        portion of the complainant's salary was not paid from the research project, 3)
        might have taken funds out of the grant, moved it to another professor's account, and
        then paid himself from that account, andd-)4                 his students were doing work
        that was published over tbenty years ago.

         We reviewed the program jacket and found a copy of the inviice from the subcontractor
         with a payment authorization for the NSF grant.

         The complainant has no documents to substantiate his allegations about the PI'S transfer

                                                  0
         of funds to another professor's account. He did not provide NSF-OIG a basis for this
         allegation, but said that professor was

        The complainant was not involved with any financial aspects of the grant, and did not
        know if funds were used for non-grant related expenses or used illegally. He adrmtted that
        when he left, the project seemed to be running well. The complainant admitted rhat he
        did not like some of the ways the PI chose to spend the funds, and the two of them
        disagreed dn other project issues.

         The grant expenditure reports showed that the complainant was paid 5 months salary per
         year, plus travel, equipment, and other expenses. The other issues addressed by the
         complainant are program issues, therefore outside the purview of an OIG review.
Our review of the program jacket and expenditure reports found no abnormal charges to
the grant. These findings, along with the fact that the complainant was not involved with
financial aspects of the grant, and when asked, said he didn't know if any funds were
being used ilfegally, does not gtve us cause to pursue this matter.

This case is closed.
